United States Court of Appeals
For the First Circuit
No. 20-1611
GLENPLOURDE,
Plaintiff - Appellant,
v.
STATE OF MAINE; WILLIAM ANDERSON, Penobscot County Superior Court Justice;
CHARLES F. BUDD, JR., Newport District Court Judge; PENOBSCOT COUNTY DISTRICT
ATTORNEY'S OFFICE; MARIANNE LYNCH, Penobscot County Assistant District Attorney;
STEPHEN BURLOCK, Penobscot County Assistant District Attorney; PHILIP MOHLAR,
Attorney at Law; DICK HARTLEY, Attorney at Law,

!

Defendants - Appellees.

Before
.:

*■

Lynch and Thompson^
Circuit Judges.
JUDGMENT
Entered: November 12, 2020
Plaintiff-appellant Glen Plourde appeals from a May 22, 2020 judgment dismissing his
civil action. After careful reyiew of the record apdPlourde’s arguments on appeal, we affirm i

By the Court:
Maria R. Hamilton, Clerk

1:

While this case was submitted to a panel that included Judge Torruella, he did not participate in
the issuance of the panel's judgment. The remaining two panelists therefore issued the judgment
pursuant to 28 HS.C. § 46(dL

A
Si®

Case l:20-cv-00l49-LEW Document 8 Hied Ob/21/20 Page 2 or 4 PagelD #: 218

deprivation of state and federal constitutional rights, malicious prosecution, attorney
malpractice, defamation, perjury, tampering with public records, falsification of evidence,
and failur e to investigate or protect against torture.
DISCUSSION
Issues of subject matter jurisdiction “can be raised sua sponte at any time” because
they relate to the fundamental Article ID limitations on federal courts. See McBee v. Delica
Co., 417 F.3d 107. 127 (1st Cir. 2005). Courts have determined that this permits them to
dismiss a complaint prior to service of process on the named defendants when the
complaint is frivolous or obviously lades merit:
Because [Plaintiff] is neither a prisoner nor proceeding in forma pauperis in
district court, the provisions of 28 U.S.C. §§ 1915(e)f2t.1915A. permitting
sua sponte dismissal of complaints which fail to state a claim are
inapplicable. However, frivolous complaints are subject to dismissal
pursuant to the inherent authority of the court, even when the filing fee has
been paid. In addition, because a court lacks subject matter jurisdiction over
an obviously frivolous complaint, dismissal prior to service of process is
permitted.
Yi v. Soc. Sec. Admin., 554 R App’x 247.248 (4th Cir. 2014) (internal citations omitted);
see also, Evans v. Sitter, No. 09-5242,2010 WL 1632902. at *1 (D.C. Cir. Apr. 2, 2010)
(“Contrary to appellant’s assertions, a district court may dismiss a complaint sua sponte
prior to service on the defendants pursuant to Fed. R. Civ. P. 12fhY31 when, as here, it is
evident that the court lacks subject-matter jurisdiction”); Rutledge v. SJdbicki, 844 F.2d792
(9th Cir. 1988) (“The district court may sua sponte dismiss a complaint prior to the issuance
of a summons if the court clearly lacks subject matter jurisdiction or lacks jurisdiction
because the claim is wholly insubstantial and frivolous”); Best v. Kelly, 39 F.3d 328. 331

2

Case l:20-cv-00149-LEW Document« Hied0b/2l/20 Page 3 ot 4 Page!U#:ZL9

(D.C. Cir. 1994) (suggesting that dismissal for lack of jurisdiction may be warranted for
complaints such as “bizarre conspiracy theories,” “fantastic government manipulations of
their will or mind,” or “supernatural intervention”). A court’s expeditious sua sponte
review is based on the longstanding doctrine that federal subject matter jurisdiction is
lacking when the legitimate federal issues are not substantial. See Hagans v. Lccvine, 415
U.S. 528. 536-37 (1974) (jurisdiction is lacking when claims are “so attenuated and
unsubstantial as to be absolutely devoid of merit,” “wholly insubstantial,” “obviously
frivolous,” “plainly unsubstantial,” “no longer open to discussion,” “essentially fictitious,”
or “obviously without merit”); Swan v. United States, 36 F. App’x 459 (1st Cir. 2002) (“A
frivolous constitutional issue does not raise a federal question, however”).1
My review of the allegations in the complaint and the exhibits reveals many of the
concerns that characterize unsubstantial claims. For example, Plaintiff implausibly asserts
that there was a grand conspiracy among the prosecutors, private attorneys, and judges;
that his original appointed attorney’s name was actually an alias; that a judge and two
prosecutors committed perjury and falsified or tampered with official records to hide the
identity of the judge who presided over one of his hearings; and that the defendants delayed

1 Although the doctrine has been criticized for conflating jurisdiction over a claim with the merits of that
claim, see e.g., Rosado v. Wyman. 397 TJ.S. 397. 404 U9701 (the maxim is “more ancient than analytically
sound”); Bell v. Hood, 17.7U-S.678- 682-33.66 S. Ct. 773.776.90 L, Ed. 939 (1946) (regarding “wholly
insubstantial and frivolous” claims, “[t]he accuracy of calling these dismissals jurisdictional has been
questioned”), the doctrine nevertheless remains good law. See Crowley Cutlery Co. v. United States, M2
F,2d 273.276 (7tfa Cir. 1988) (“Although most of the Court’s statements of the principle have been dicta
rather than holdings, and the principle has been questioned, it is an established principle of federal
jurisdiction and remains the federal rule. It is the basis of a large number of lower-court decisions, and at
this late date only the Supreme Court can change if”} (internal quotations and citations omitted); see also,
Steel Co. v. Citizens far a Better Env % 523 U.S. 83.89 (1998) (approving of the doctrine); Cruz v. House
of Representatives, 301 F. Supp. 3d 15. 77 (D.D.C. 2018) (applying the concept to dismiss obviously
meritless claims).

3

Case l:20-cv-00149-LEW Document 8 Filed 05/21/20 Page 4 of 4

PagelD #: 220

dismissing the charges partly to observe him and gauge his legal acumen-because they
knew he had been tortured and would tty to prove it2 Plaintiff’s allegations cannot
reasonably be construed to assert a substantial federal claim. Dismissal is, therefore,
appropriate.
Because dismissal of the federal claims is warranted, I do not exercise supplemental
jurisdiction over the state law claims. See Rodriguez v. DoralMortg. Corp.. 57F.3d 1168.
1177 (1st Cir. 1995) (“As a general principle, the unfavorable disposition of a plaintiff’s
federal claims at the early stages of a suit, well before the commencement of trial, will
trigger the dismissal without prejudice of any supplemental state-law claims”).
Because Plaintiff’s complaint in this and several other cases lack merit, see 1:19cv-00486rJAW; 2:19-cv-00532-JAW, l:20-cv-00137-GZS, Plaintiff is hereby advised that
filing restrictions “may be in the offing” in accordance with Cok v. Family Court ofRhode
Island, 985 F.2d32.35 (1st Cir. 1993).
CONCLUSION
Plaintiffs complaint is DISMISSED. Plaintiff is advised that filing restrictions
may follow if he pursues further baseless or frivolous litigation.
SO ORDERED.
Dated this 21st day of May, 2020.
fsf Lance E. Walker
UNITED STATES DISTRICT JUDGE

2 Plaintiff submitted exhibits claiming he was the victim of torture in a top-secret government program,
suffered a coordinated electronic hacking campaign, and has been sent hidden messages in various unrelated
documents, numbers, and media, among other assertions.

4

United States Court of Appeals

•v

For the First Circuit
No. 20-1611
GLEN PLOURDE,
Plaintiff - Appellant,
v.
STATE OF MAINE; WILLIAM ANDERSON, Penobscot County Superior Court Justice;
— CHARLES F. BUDD, JR., Newport District Court Judge; PENOBSCOT COUNTY DISTRICT
ATTORNEY'S OFFICE; MARIANNE LYNCH, Penobscot County Assistant District Attorney;
STEPHEN BURLOCK, Penobscot County Assistant District Attorney; PHILIP MOHLAR,
Attorney at Law; DICK HARTLEY, Attorney at Law,
Defendants - Appellees.

Before
Howard, Chief Judge.
Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: January 25, 2021
____ .Plaintiff-appeUant's^petition.for rehearing.and for rehearing en banc is denied. Plaintiff-.
appellant's motion for appointment of counsel is denied as moot.

By the Court:
Maria R. Hamilton, Clerk

cc:
Glen Plourde
Aaron M. Frey
Marianne Lynch
Stephen Burlock

c

§2340

TITLE 18—CRIMES AND CRIMINAL PROCEDURE

Page 548

«*■

r

organization designated at the time of the train­
ing by the Secretary of State under section
219(a)(1) of the Immigration and Nationality Act
as a foreign terrorist organization shall be fined
under this title or imprisoned for ten years, or
both. To violate this subsection, a person must
have knowledge that the organization is a des­
ignated terrorist organization (as defined in sub­
section (c)(4)), that the organization has en­
gaged or engages in terrorist activity (as defined
in section 212 of the Immigration and National­
ity Act), or that the organization has engaged or
engages in terrorism (as defined in section
140(d)(2) of the Foreign Relations Authorization
Act, Fiscal Years 1988 and 1989).
(b) Extraterritorial Jurisdiction.—There is
extraterritorial Federal jurisdiction over an of­
fense under this section. There is jurisdiction
over an offense under subsection (a) if—
(1) an offender is a national of the United
States (as defined in1 101(a)(22) of the Immi­
gration and Nationality Act) or an alien law­
fully admitted for permanent residence in the
United States (as defined in section 101(a)(20)
of the Immigration and Nationality Act);
(2) an offender is a stateless person whose
habitual residence is in the United States;
(3) after the conduct required for the offense
occurs an offender is brought into or found in
the United States, even if the conduct re­
quired for the offense occurs outside the
United States;
(4) the offense occurs in whole or in part
within the United States;
(5) the offense occurs in or affects interstate
or foreign commerce; or
(6) an offender aids or abets any person over
whom jurisdiction exists under this paragraph
in committing an offense under subsection (a)
or conspires with any person over whom juris­
diction exists under this paragraph to commit
an offense under subsection (a).
(c) Definitions.—As used in this section—
(1) the term “military-type training” in­
cludes training in means or methods that can
cause death or serious bodily injury, destroy
or damage property, or disrupt services to
critical infrastructure, or training on the use,
storage, production, or assembly of any explo­
sive, firearm or other weapon, including any
weapon of mass destruction (as defined in sec­
tion 2232a(c)(2)2);
(2) the term “serious bodily injury” has the
meaning given that term in section 1365(h)(3);
(3) the term “critical infrastructure” means
systems and assets vital to national defense,
national security, economic security, public
health or safety including both regional and
national infrastructure. Critical infrastruc­
ture may be publicly or privately owned; ex­
amples of critical infrastructure include gas
and oil production, storage, or delivery sys­
tems, water supply systems, telecommunica­
tions networks, electrical power generation or
delivery systems, financing and banking sys­
tems, emergency services (including medical,
police, fire, and rescue services), and transporiSo in original. The word “section” probably should appear
after “in”.
2 So in original. Probably should be section “2332a(c)(2>”.

tation systems and services (including high­
ways, mass transit, airlines, and airports); and
(4) the term “foreign terrorist organization”
means an organization designated as a terror­
ist organization under section 219(a)(1) of the
Immigration and Nationality Act.
(Added Pub. L. 108-458, title VI, §6602, Dec. 17,
2004, 118 Stat. 3761.)
References in text
Sections 101, 212, and 219 of the Immigration and Na­
tionality Act, referred to in subsecs, (a), (b)(1), and
(c)(4), are classified to sections 1101, 1182, and 1189, re­
spectively, of Title 8, Aliens and Nationality.
Section 140(d)(2) of the Foreign Relations Authoriza­
tion Act, Fiscal Years 1988 and 1989, referred to in sub­
sec. (a), is classified to section 2656f(d)(2) of Title 22,
Foreign Relations and Intercourse.
CHAPTER 113C—TORTURE
Sec.
2340.
2340A.
2340B.

Definitions.
Torture.
Exclusive remedies.

Amendments
2002—Pub. L. 107-273, div. B, title IV, § 4002(c)(1), Nov.
2, 2002, 116 Stat. 1808, repealed Pub. L. 104-294, title VI,
§601(j)(l), Oct. 11, 1996, 110 Stat. 3501. See 1996 Amend­
ment note below.
1996—Pub. L. 104-132, title m, § 303(c)(1), Apr. 24, 1996,
110 Stat. 1253, redesignated chapter 113B as 113C. Pub.
L. 104-294, title VI, §601(j)(l), Oct. 11,1996, 110 Stat. 3501,
which made identical amendment, was repealed by Pub.
L. 107-273, div. B, title IV, §4002(0(1), Nov. 2, 2002, 116
Stat. 1808, effective Oct. 11, 1996.
§2340. Definitions

As used in this chapter—
(1) “torture” means an act committed by a
person acting under the color of law specifi­
cally intended to inflict severe physical or
mental pain or suffering (other than pain or
suffering incidental to lawful sanctions) upon
another person within his custody or physical
control;
(2) “severe mental pain or suffering” means
the prolonged mental harm caused by or re­
sulting from—
(A) the intentional infliction or threatened
infliction of severe physical pain or suffer­
ing;
(B) the administration or application, or
threatened administration or application, of
mind-altering substances or other proce­
dures calculated to disrupt profoundly the
senses or the personality;
(C) the threat of imminent death; or
(D) the threat that another person will im­
minently be subjected to death, severe phys­
ical pain or suffering, or the administration
or application of mind-altering substances
or other procedures calculated to disrupt
profoundly the senses or personality; and
(3) “United States” means the several States
of the United States, the District of Columbia,
and the commonwealths, territories, and pos­
sessions of the United States.
(Added Pub. L. 103-236, title V, §506(a), Apr. 30,
1994, 108 Stat. 463; amended Pub. L. 103-415,
§l(k), Oct. 25, 1994, 108 Stat. 4301; Pub. L. 103-429,

D

Page 549
•f

v.

TITLE 18—CRIMES AND CRIMINAL PROCEDURE

§2(2), Oct. 31, 1994, 108 Stat. 4377; Pub. L. 108-375,
div. A, title X, §1089, Oct. 28, 2004, 118 Stat. 2067.)
Amendments
2004—Par. <3). Pub. L. 108-375 amended par. (3) gener­
ally. Prior to amendment, par. (3) read as follows:
‘“United States’ includes all areas under the jurisdic­
tion of the United States including any of the places
described in sections 5 and 7 of this title and section
46501(2) of title 49.”
1994—Par. (1). Pub. L. 103-415 substituted “within his
custody” for “with custody”.
Par. (3). Pub. L. 103-429 substituted “section 46501(2)
of title 49” for “section 101(38) of the Federal Aviation
Act of 1958 (49 U.S.C. App. 1301(38))”.
Effective Date
Section 506(c) of Pub. L. 103-236 provided that: “The
amendments made by this section [enacting this chap­
ter] shall take effect on the later of—
“(1) the date of enactment of this Act [Apr. 30,
1994]; or
“(2) the date on which the United States has be­
come a party to the Convention Against Torture and
Other Cruel, Inhuman or Degrading Treatment or
Punishment.” [Convention entered into Force with
respect to United States Nov. 20, 1994, Treaty Doc.
100-20.]

§ 2340A. Torture
(a) Offense.—Whoever outside the United
States commits or attempts to commit torture
shall be fined under this title or imprisoned not
more than 20 years, or both, and if death results
to any person from conduct prohibited by this
subsection, shall be punished by death or impris­
oned for any term of years or for life.
(b) Jurisdiction.—There is jurisdiction over
the activity prohibited in subsection (a) if—
(1) the alleged offender is a national of the
United States; or
(2) the alleged offender is present in the
United States, irrespective of the nationality
of the victim or alleged offender.
(c) Conspiracy.—A person who conspires to
commit an offense under this section shall be
subject to the same penalties (other than the
penalty of death) as the penalties prescribed for
the offense, the commission of which was the ob­
ject of the conspiracy.
(Added Pub. L. 103-236, title V, § 506(a), Apr. 30,
1994, 108 Stat. 463; amended Pub. L. 103-322, title
VI, §60020, Sept. 13, 1994, 108 Stat. 1979; Pub. L.
107-56, title Vm, § 811(g), Oct. 26, 2001, 115 Stat.
381.)
Amendments
2001—Subsec. (c). Pub. L. 107-56 added subsec. (c).
1994—Subsec. (a). Pub. L. 103-322 inserted “punished
by death or” before “imprisoned for any term of years
or for life”.
§ 2340B. Exclusive remedies

Nothing in this chapter shall be construed as
precluding the application of State or local laws
on the same subject, nor shall anything in this
chapter be construed as creating any sub­
stantive or procedural right enforceable by law
by any party in any civil proceeding.
(Added Pub. L. 103-236, title V, §506(a), Apr. 30,
1994, 108 Stat. 464.)

§2341

CHAPTER 114—TRAFFICKING IN CONTRA­
BAND CIGARETTES AND SMOKELESS TO­
BACCO
Sec.
2341.
2342.
2343.
2344.
2345.
2346.

Definitions.
Unlawful acts.
Recordkeeping, reporting, and Inspection.
Penalties.
Effect on State and local law.
Enforcement and regulations.
AMENDMENTS

2006—Pub. L. 109-177, title I, § 121(g)(3), (4)(A), Mar. 9,
2006, 120 Stat. 224, substituted “TRAFFICKING IN CON­
TRABAND CIGARETTES AND SMOKELESS TO­
BACCO” for “TRAFFICKING IN CONTRABAND CIGA­
RETTES” in chapter heading, added items 2343 and
2345, and struck out former items 2343 “Recordkeeping
and inspection” and 2345 “Effect on State law”.
§ 2341. Definitions

As used in this chapter—
(1) the term “cigarette” means—
(A) any roll of tobacco wrapped in paper or
in any substance not containing tobacco;
and
(B) any roil of tobacco wrapped in any sub­
stance containing tobacco which, because of
its appearance, the type of tobacco used in
the filler, or its packaging and labeling, is
likely to be offered to, or purchased by, con­
sumers as a cigarette described in subpara­
graph (A);
(2) the term “contraband cigarettes” means
a quantity in excess of 10,000 cigarettes, which
hear no evidence of the payment of applicable
State or local cigarette taxes in the State or
locality where such cigarettes are found, if the
State or local government requires a stamp,
impression, or other indication to he placed on
packages or other containers of cigarettes to
evidence payment of cigarette taxes, and
which are in the possession of any person
other than—
(A) a, person holding a permit issued pursu­
ant to chapter 52 of the Internal Revenue
Code of 1986 as a manufacturer of tobacco
products or as an export warehouse propri­
etor, or a person operating a customs bonded
warehouse pursuant to section 311 or 555 of
the Tariff Act of 1930 (19 U.S.C. 1311 or 1555)
or an agent of such person;
(B) a common or contract carrier trans­
porting the cigarettes involved under a prop­
er hill of lading or freight hill which states
the quantity, source, and destination of such
cigarettes;
(C) a person—
(i) who is licensed or otherwise author­
ized by the State where the cigarettes are
found to account for and pay cigarette
taxes imposed by such State; and
(ii) who has complied with the account­
ing and payment requirements relating to
such license or authorization with respect
to the cigarettes involved; or
(D) an officer, employee, or other agent of
the United States or a State, or any depart­
ment, agency, or instrumentality of the
United States or a State (including any po­
litical subdivision of a State) having posses-

ir

Convention against Torture and Other Cruel, Inhuman or
Degrading Treatment or Punishment

Adopted and opened for signature, ratification and accession by General
Assembly resolution 39/46 of 10 December 1984
entry into force 26 June 1987, in accordance with article 27 (1)
The States Parties to this Convention,
Considering that, in accordance with the principles proclaimed in the Charter of the United
Nations, recognition of the equal and inalienable rights of all members of the human family is
the foundation of freedom, justice and peace in the world,
Recognizing that those rights derive from the inherent dignity of the human person,
Considering the obligation of States under the Charter, in particular Article 55, to promote
universal respect for, and observance of, human rights and fundamental freedoms,
Having regard to article 5 of the Universal Declaration of Human Rights and article 7 of the
International Covenant on Civil and Political Rights, both of which provide that no one shall be
subjected to torture or to cruel, inhuman or degrading treatment or punishment,
Having regard also to the Declaration on the Protection of All Persons from Being Subjected to
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, adopted by the
General Assembly on 9 December 1975,
Desiring to make more effective the struggle against torture and other cruel, inhuman or
degrading treatment or punishment throughout the world,
Have agreed as follows:
PARTI
Article 1
1. For the purposes of this Convention, the term "torture" means any act by which severe pain or
suffering, whether physical or mental, is intentionally inflicted on a person for such purposes as
obtaining from him or a third person information or a confession, punishing him for an act he or
a third person has committed or is suspected of having committed, or intimidating or coercing
him or a third person, or for any reason based on discrimination of any kind, when such pain or
suffering is inflicted by or at the instigation of or with the consent or acquiescence of a public
official or other person acting in an official capacity. It does not include pain or suffering arising
only from, inherent in or incidental to lawful sanctions.

E

*1'

*

2. This article is without prejudice to any international instrument or national legislation which
does or may contain provisions of wider application.
Article 2
1. Each State Party shall take effective legislative, administrative, judicial or other measures to
prevent acts of torture in any territory under its jurisdiction.
2. No exceptional circumstances whatsoever, whether a state of war or a threat of war, internal
political instability or any other public emergency, may be invoked as a justification of torture.
3. An order from a superior officer or a public authority may not be invoked as a justification of
torture.
Article 3
1. No State Party shall expel, return ("refouler") or extradite a person to another State where
there are substantial grounds for believing that he would be in danger of being subjected to
torture.
2. For the purpose of determining whether there are such grounds, the competent authorities shall
take into account all relevant considerations including, where applicable, the existence in the
State concerned of a consistent pattern of gross, flagrant or mass violations of human rights.
Article 4
1. Each State Party shall ensure that all acts of torture are offences under its criminal law. The
same shall apply to an attempt to commit torture and to an act by any person which constitutes
complicity or participation in torture. 2. Each State Party shall make these offences punishable
by appropriate penalties which take into account their grave nature.
Article 5
1. Each State Party shall take such measures as may be necessary to establish its jurisdiction over
the offences referred to in article 4 in the following cases:
(a) When the offences are committed in any territory under its jurisdiction or on board a ship or
aircraft registered in that State;
(b) When the alleged offender is a national of that State;
(c) When the victim is a national of that State if that State considers it appropriate.
2. Each State Party shall likewise take such measures as may be necessary to establish its
jurisdiction over such offences in cases where the alleged offender is present in any territory

$

under its jurisdiction and it does not extradite him pursuant to article 8 to any of the States
mentioned in paragraph I of this article.
3. This Convention does not exclude any criminal jurisdiction exercised in accordance with
internal law.
Article 6
1. Upon being satisfied, after an examination of information available to it, that the
circumstances so warrant, any State Party in whose territory a person alleged to have committed
any offence referred to in article 4 is present shall take him into custody or take other legal
measures to ensure his presence. The custody and other legal measures shall be as provided in
the law of that State but may be continued only for such time as is necessary to enable any
criminal or extradition proceedings to be instituted.
2. Such State shall immediately make a preliminary inquiry into the facts.
3. Any person in custody pursuant to paragraph I of this article shall be assisted in
communicating immediately with the nearest appropriate representative of the State of which he
is a national, or, if he is a stateless person, with the representative of the State where he usually
resides.
4. When a State, pursuant to this article, has taken a person into custody, it shall immediately
notify the States referred to in article 5, paragraph 1, of the fact that such person is in custody
and of the circumstances which warrant his detention. The State which makes the preliminary
inquiry contemplated in paragraph 2 of this article shall promptly report its findings to the said
States and shall indicate whether it intends to exercise jurisdiction.
Article 7
1. The State Party in the territory under whose jurisdiction a person alleged to have committed
any offence referred to in article 4 is found shall in the cases contemplated in article 5, if it does
not extradite him, submit the case to its competent authorities for the purpose of prosecution.
2. These authorities shall take their decision in the same manner as in the case of any ordinary
offence of a serious nature under the law of that State. In the cases referred to in article 5,
paragraph 2, the standards of evidence required for prosecution and conviction shall in no way be
less stringent than those which apply in the cases referred to in article 5, paragraph 1.
3. Any person regarding whom proceedings are brought in connection with any of the offences
referred to in article 4 shall be guaranteed fair treatment at all stages of the proceedings.
Article 8

£

1. The offences referred to in article 4 shall be deemed to be included as extraditable offences in
any extradition treaty existing between States Parties. States Parties undertake to include such
offences as extraditable offences in every extradition treaty to be concluded between them.
2. If a State Party which makes extradition conditional on the existence of a treaty receives a
request for extradition from another State Party with which it has no extradition treaty, it may
consider this Convention as the legal basis for extradition in respect of such offences. Extradition
shall be subject to the other conditions provided by the law of the requested State.
3. States Parties which do not make extradition conditional on the existence of a treaty shall
recognize such offences as extraditable offences between themselves subject to the conditions
provided by the law of the requested State.
4. Such offences shall be treated, for the purpose of extradition between States Parties, as if they
had been committed not only in the place in which they occurred but also in the territories of the
States required to establish their jurisdiction in accordance with article 5, paragraph 1.
Article 9
1. States Parties shall afford one another the greatest measure of assistance in connection with
criminal proceedings brought in respect of any of the offences referred to in article 4, including
the supply of all evidence at their disposal necessary for the proceedings.
2. States Parties shall carry out their obligations under paragraph I of this article in conformity
with any treaties on mutual judicial assistance that may exist between them.
Article 10
1. Each State Party shall ensure that education and information regarding the prohibition against
torture are fully included in the training of law enforcement personnel, civil or military, medical
personnel, public officials and other persons who may be involved in the custody, interrogation
or treatment of any individual subjected to any form of arrest, detention or imprisonment.
2. Each State Party shall include this prohibition in the rules or instructions issued in regard to
the duties and functions of any such person.
Article 11
Each State Party shall keep under systematic review interrogation rules, instructions, methods
and practices as well as arrangements for the custody and treatment of persons subjected to any
form of arrest, detention or imprisonment in any territory under its jurisdiction, with a view to
preventing any cases of torture.
Article 12

*

Each State Party shall ensure that its competent authorities proceed to a prompt and impartial
investigation, wherever there is reasonable ground to believe that an act of torture has been
committed in any territory under its jurisdiction.
Article 13
Each State Party shall ensure that any individual who alleges he has been subjected to torture in
any territory under its jurisdiction has the right to complain to, and to have his case promptly and
impartially examined by, its competent authorities. Steps shall be taken to ensure that the
complainant and witnesses are protected against all ill-treatment or intimidation as a
consequence of his complaint or any evidence given.
Article 14
1. Each State Party shall ensure in its legal system that the victim of an act of torture obtains
redress and has an enforceable right to fair and adequate compensation, including the means for
as full rehabilitation as possible. In the event of the death of the victim as a result of an act of
torture, his dependants shall be entitled to compensation.
2. Nothing in this article shall affect any right of the victim or other persons to compensation
which may exist under national law.
Article 15
Each State Party shall ensure that any statement which is established to have been made as a
result of torture shall not be invoked as evidence in any proceedings, except against a person
accused of torture as evidence that the statement was made.
Article 16
1. Each State Party shall undertake to prevent in any territory under its jurisdiction other acts of
cruel, inhuman or degrading treatment or punishment which do not amount to torture as defined
in article I, when such acts are committed by or at the instigation of or with the consent or
acquiescence of a public official or other person acting in an official capacity. In particular, the
obligations contained in articles 10,11,12 and 13 shall apply with the substitution for references
to torture of references to other forms of cruel, inhuman or degrading treatment or punishment.
2. The provisions of this Convention are without prejudice to the provisions of any other
international instrument or national law which prohibits cruel, inhuman or degrading treatment
or punishment or which relates to extradition or expulsion.
PART n
Article 17

